Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 06/30/2010

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau        Recovery Act TAFS          Award Type        US Indicator        Total Obligations     Total Gross         Direct or            Ordering TAFS
No.                                                                                                                          Outlays         Reimbursable
      Department of State - OIG    (19-0530 2009 \ 2010)       Contracts and         Y - US              $37,608            $27,070
                                   State - OIG - Recovery    Orders (including
 1                                 Act                        modifications)                                                               Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)       Contracts and         Y - US             $137,618            $124,964
                                   State - OIG - Recovery    Orders (including
 2                                 Act                        modifications)                                                               Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $20,000            $11,503
                                   State - OIG - Recovery   Orders (including
 4                                 Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $108,308            $92,659
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $118,799             $3,655
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137             $5,064
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $164,159             $2,113
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $88,574             $2,280
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $72,249            $28,651
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137             $6,517
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137             $4,917
                                   State - OIG - Recovery   Orders (including
  5                                Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $137,543               $0
                                   State - OIG - Recovery   Orders (including
  6                                Act                      modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US             $437,002               $0
                                   State - OIG - Recovery   Orders (including
 7                                 Act                      modifications)                                                                 Direct             N/A
 8


                                                   Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau          FY 2009 Non-            Total FY 2009      Total FY 2009    FY 2010 Non-Recovery    Total FY 2010      Total FY 2010
No.                                 Recovery Act TAFS          Obligations       Gross Outlays          Act TAFS           Obligations       Gross Outlays
      Department of State - OIG    (19-0529 2009) State -              $59,536           $59,536 (19-0529 2010) State -          $66,744            $66,744
 1                                 OIG                                                           OIG
 2
 3
 4
 5
 6
 7
 8
Monthly Update Report Data (sheet 2 of 5) Version 5.0a
     Reporting OIG: Department of State - OIG

 Month Ending Date: 6/30/2010


                                                          Fiscal Year 2009
                                                                        Monetary Results - Audits, Inspections,
                            Monetary Results -Investigations
                                                                                     Reviews*

                                                                             Questioned Costs
                              Recoveries (FY 09):
                                                                                      (FY 09):


                                                                         Unsupported Costs
                    Forefeitures/Seizures (FY 09):
                                                                                   (FY 09):

                                                                         Recommendations
                       Estimated Savings (FY 09):                          for Better Use of
                                                                              Funds (FY 09):



                                                          Fiscal Year 2010
                                                                         Monetary Results - Audits, Inspections,
                            Monetary Results -Investigations
                                                                                      Reviews*

                                                                             Questioned Costs
                              Recoveries (FY 10):
                                                                                      (FY 10):


                                                                         Unsupported Costs
                    Forefeitures/Seizures (FY 10):
                                                                                   (FY 10):

                                                                         Recommendations
                       Estimated Savings (FY 10):                          for Better Use of
                                                                              Funds (FY 10):



                                                   Cumulative Since 2/17/2009
                                                                      Monetary Results - Audits, Inspections,
                            Monetary Results -Investigations
                                                                                   Reviews*

                                                                             Questioned Costs
                        Recoveries (cumulative):       $0.00                                       $0.00
                                                                                (cumulative):


                            Forefeitures/Seizures                        Unsupported Costs
                                                       $0.00                                       $0.00
                                    (cumulative):                             (cumulative):


                                                                         Recommendations
                                Estimated Savings
                                                       $0.00               for Better Use of       $0.00
                                     (cumulative):
                                                                        Funds (cumulative):
Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 6/30/2010

                            FTE Working on Recovery
                                                                                                                                          Testimonies:
      Fiscal Year              2009            2010              Cumulative
       Newly Hired FTE
                              0.00             0.00                  0.00                                                         Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                              0.08             1.33                  1.41                                                       Provided (cumulative):       0
 Act Funds (cumulative):

    FTE Not Funded by
    Recovery Act Funds        0.50             0.31                  0.81
         (cumulative):

                                                                                                                              Audits / Inspections / Evaluations /
              Complaints                           Whistleblower Reprisal Allegations                Investigations                                                        Training / Outreach
                                                                                                                                            Reviews
             Monthly Data                                    Monthly Data                            Monthly Data                        Monthly Data                         Monthly Data

                                                                                                                                                                           Training Sessions
              Received:         0                                      Received:        0      Opened (this month):     0       Initiated (this month):      0                                   0
                                                                                                                                                                                  Provided:

                                                                                             Active (as of the end of         In Process (as of the end
                                                                       Accepted:        0                               0                                   12          Individuals Trained:     0
                                                                                                         the month):                    of the month):
                                                                                                                                      Completed Final
                                                                                                                                                                          Hours of Training
                                                                                                   Pending Decision:    0             Published Work         0                                   0
                                                                                                                                                                                 Provided:
                                                                                                                                              Products:
                                                                                                                                       Priority Interim
                                                                                                                                                                          Outreach Sessions
                                                                                              Closed without Action:    0             Published Work         0                                   0
                                                                                                                                                                                Conducted:
                                                                                                                                              Products:
                                                                                                                                    Unpublished Work
                                                                                               Prosecution Declined:    0                                    0
                                                                                                                                            Products*:

                                                                                             Referred for Alternative
                                                                                                                        0                 QCRs Issued:       0
                                                                                                          Resolution:

                                                                                                       Convictions,
                                                                                                Settlements, Pleas,      0
                                                                                                        Judgments:
   Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009          Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                    Completed Final
                                                                                                                                                                           Training Sessions
              Received:         3                                      Received:        1     Closed without Action:    0            Published Work       5                                      1
                                                                                                                                                                                  Provided:
                                                                                                                                           Products:
                                                                                                                                     Priority Interim
                                                                       Accepted:        0      Prosecution Declined:    0            Published Work       0             Individuals Trained:     20
                                                                                                                                           Products:

                                                                                             Referred for Alternative               Unpublished Work                      Hours of Training
                                                                                                                        0                                    1                                   40
                                                                                                          Resolution:                      Products*:                            Provided:

                                                                                                        Convictions,
                                                                                                                                                                          Outreach Sessions
                                                                                                 Settlements, Pleas,    0                 QCRs Issued:       0                                   4
                                                                                                                                                                                Conducted:
                                                                                                         Judgments:

                                                                                                  Cumulative Total:     0           Cumulative Total:        6
Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 06/30/2010

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Met with officials and toured warehouse and lab facilities in Springfield, VA, in connection with audits of ARRA-funded
         1
                     projects to replace Department of State desktop computers and diplomatic facility telephone systems
                     Held entrance conference for an IPA audit on Department of State Compliance with Federal Procurement Data System
         2
                     Reporting Requirements for ARRA-funded projects
         3
         4           Addressed Department management comments and completed final report packages for two IPA reports:
         5            *Department of State Compliance With Transparency and Reporting Requirements of ARRA
         6            * International Boundary and Water Commission: Contract Award and Management of Funds Provided by ARRA
         7
         8
         9
        10

       No.                                 OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     OIG will initiate performance and financial audits, to be conducted by IPAs in El Paso, Texas, for IBWC Recovery Act
         1
                     contracts that will include contractor compliance with labor standards and regulations
                     OIG will assist IPA conducting a performance audit of Worldwide Computer Security System Enhancements funded by
         2           ARRA. OIG staff will travel overseas to verify ARRA-funded equipment purchased for embassies that will provide next
                     generation secure telephones and security systems for computer system authentication and access controls
                     OIG audit staff anticipate visiting four or five posts in the fall to conduct fieldwork concurrently for audits to replace desktop
         3
                     computers and diplomatic facility telephone systems using ARRA funds
         4
         5
         6
         7
         8
         9
        10
Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending 06/30/2010

                                                                      TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                      Training                  Length of                  Training
                                                 Target                                              Date of                 Number of                   Cost of
     No.               Type of Training                        Title of Training   Location (City,              Training                  Provided
                                                Audience                                             Training               Participants                 Training
                                                                                       State)                    (hours)                   (length x
                                                                                                                                         participants)
       1                                                                                                                                             0
      2                                                                                                                                              0
      3                                                                                                                                              0
      4                                                                                                                                              0
      5                                                                                                                                              0
      6                                                                                                                                              0
      7                                                                                                                                              0
      8                                                                                                                                              0
      9                                                                                                                                              0
      10                                                                                                                                             0
      11                                                                                                                                             0
      12                                                                                                                                             0
      13                                                                                                                                             0
      14                                                                                                                                             0
      15                                                                                                                                             0
                                                                                                                 TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                          Outreach
                    Organization to which                     Description of                          Date of
     No.                                      Represented at                       Location (City,
                     Outreach Provided                          Outreach                             Outreach
                                                Outreach                               State)
                                                 Session
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10
